           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



 INDIVIDUAL REPRESENTATIVE PAYEES
      FOR THE SOCIAL SECURITY
       ADMINISTRATION IN THE
           BOSTON REGION

     December 2004   A-01-05-15048




   EVALUATION
     REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                         SOCIAL SECURITY
MEMORANDUM

Date:   December 8, 2004                                                                          Refer To:

To:     Manuel J. Vaz
        Regional Commissioner
         Boston

From:   Assistant Inspector General
         for Audit

Subject: Individual Representative Payees for the Social Security Administration in the Boston
        Region (A-01-05-15048)


        OBJECTIVE
        Our objective was to confirm that beneficiaries in the care of representative payees
        existed; and, through personal observation and interviews, to determine whether the
        beneficiaries' food, clothing and shelter needs were being met.

        BACKGROUND
        Some individuals cannot manage or direct the management of their finances because of
        their youth or mental and/or physical impairments. Congress granted the Social
        Security Administration (SSA) the authority to appoint representative payees to receive
        and manage these beneficiaries’ benefit payments.1 A representative payee may be an
        individual or an organization. SSA selects representative payees for Old-Age, Survivors
        and Disability Insurance beneficiaries and Supplemental Security Income recipients
        when representative payments would serve the individual’s interests.

        SSA’s primary concern is to select the payee who will best serve the beneficiary’s
        interest; and preference is normally given to a parent, legal guardian, spouse or relative
        of a beneficiary.2 SSA considers payments to a representative payee to have been
        used for the benefit of the beneficiary if they were spent on the beneficiary’s



        1
         The Social Security Act §§ 205(j)(1)(A) and 1631(a)(2)(A)(ii), 42 U.S.C. §§ 405(j)(1)(A) and
        1383(a)(2)(A)(ii).
        2
            20 C.F.R. §§ 404.2021 and 416.621.
Page 2 – Manuel J. Vaz


maintenance—which includes the costs incurred in “…obtaining food, shelter, clothing,
medical care, and personal comfort items.”3

We conducted a nation-wide review of individual representative payees serving 14 or
fewer beneficiaries (see Appendix B for details). There are approximately 4.3 million of
these types of representative payees who serve approximately 5.5 million beneficiaries.
To provide statistically valid nation-wide projections, we selected 275 individual
representative payees for review, of which 11 were in the Boston Region.4 These
11 representative payees received and managed approximately $8,867 in monthly
benefits for 14 beneficiaries.

RESULTS OF REVIEW
We confirmed the existence of the 14 beneficiaries in the care of the 11 representative
payees in the Boston Region; and, through personal observation and interviews, we
found the beneficiaries' food, clothing and shelter needs were being met.5 Nothing
came to our attention that would lead us to believe the representative payees did not
use the Social Security benefits received for the beneficiaries’ needs. Furthermore, our
contact with the payees provided the local SSA staff the opportunity to address other
issues facing the payees and beneficiaries. Below is some information related to our
representative payee site visits.

(1)        At the time of our visit to Burlington, Vermont, the beneficiary was 17 years old
           and receiving Title II survivor benefits—which will stop when she reaches
           age 18. Based on our observations and those of the SSA District Manager who
           accompanied us on our visit, it appeared the beneficiary may have been eligible
           for disability benefits. The SSA District Manager was able to discuss with the
           representative payee the process of applying for disability benefits for the
           beneficiary; and the representative payee was grateful for the information.

(2)        We met with a woman in Providence, Rhode Island, who was receiving Title II
           survivor benefits and was serving as representative payee for her 7-year-old
           daughter. After conducting our interview, the representative payee informed us
           that she was extremely grateful for the benefits they receive from Social Security
           and she would not know what to do if she did not receive the monthly payments.

(3)        An SSA field office employee accompanied us when we visited a representative
           payee and her son in Belmont, New Hampshire. During the interview, the
           representative payee informed us that her daughter is serving as representative
           payee for her own son and does not appear to be handling his benefits

3
    20 C.F.R. §§ 404.2040(a) and 416.640(a).
4
  Originally, we had 12 cases in the Boston Region. However, one of the cases was replaced because
the representative payee and beneficiary moved to Puerto Rico.
5
    Of the 11 representative payees, 10 payees were the beneficiaries’ mother and 1 payee was a relative.
Page 3 – Manuel J. Vaz


       appropriately. Furthermore, she stated that she wanted to become her
       grandson’s representative payee. The SSA field office employee took down the
       information regarding this situation so the Agency could look into it.

(4)    An SSA Field Representative accompanied us on our visit to a representative
       payee in Springfield, Massachusetts. The representative payee handled the
       benefits for three of her children (a son and two daughters). While we were
       conducting our interview, the representative payee informed us she wanted her
       older daughter, who was 21 years old and receiving Title XVI disability benefits,
       to handle her own benefits. The representative payee believed that allowing her
       daughter to handle her own funds would teach her a valuable lesson about
       handling money. However, the representative payee informed us that her
       daughter’s doctor would not sign a form stating that she was capable of handling
       her own money. The SSA Field Representative indicated the beneficiary
       seemed capable of handling her own benefits, and he recommended that they
       make an appointment at the local SSA field office to discuss having the daughter
       receive her own benefits.

Our remaining seven visits occurred without any problems being identified. All
11 representative payees appeared to be aware of their responsibilities for the
beneficiaries' Social Security funds. Also, the beneficiaries’ needs appeared to be met
by the representative payees in all cases.

CONCLUSION
We determined that all 14 beneficiaries existed and were in the care of their
representative payee. In addition, based on our observations, the individuals' food,
clothing and shelter needs appeared to be met. Further, our contact with the payees
provided the local SSA staff the opportunity to address other issues facing the payees
and beneficiaries—thus contributing to SSA’s goal for delivering high quality,
citizen-centered service.

AGENCY COMMENTS
SSA was pleased with the results of the review. (See Appendix C for the full text of
SSA’s comments.)




                                            S
                                            Steven L. Schaeffer
                                     Appendices
APPENDIX A – Scope and Methodology

APPENDIX B – Sampling Methodology

APPENDIX C – Agency Comments

APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                                                  Appendix A

Scope and Methodology
Our population included all individual representative payees within the contiguous
48 States serving 14 or fewer beneficiaries as of May 20, 2004. To accomplish our
objective, we:

•   Reviewed the Social Security Administration’s policies and procedures for
    monitoring representative payees and their responsibilities for the beneficiaries in
    their care.

•   Obtained a data extract of representative payees from the Representative Payee
    System as of May 2004 meeting our selection criteria.

•   Selected a random sample of 275 representative payees nation-wide. We are
    issuing a separate report on the nation-wide results, as well as separate reports for
    each of the Social Security Administration’s 10 regions.1

For the 11 representative payees in the Boston Region, we
•   verified the identities of 11 representative payees and 14 beneficiaries they served;
•   interviewed 11 representative payees;
•   interviewed/observed 14 beneficiaries; and
•   visited and observed the living conditions of 14 beneficiaries.

We performed our review in Connecticut, Massachusetts, New Hampshire, Rhode
Island, and Vermont from July to October 2004. We conducted our review in
accordance with the Quality Standards for Inspections issued by the President’s Council
on Integrity and Efficiency.



1
  SSA OIG, Nation-Wide Survey of Individual Representative Payees for the Social Security
Administration (A-13-05-25006), Individual Representative Payees for the Social Security Administration
in the Boston Region (A-01-05-15048), Individual Representative Payees for the Social Security
Administration in the New York Region (A-02-05-15049), Individual Representative Payees for the Social
Security Administration in the Philadelphia Region (A-14-05-15050), Individual Representative Payees for
the Social Security Administration in the Atlanta Region (A-13-05-15051), Individual Representative
Payees for the Social Security Administration in the Chicago Region (A-05-05-15052), Individual
Representative Payees for the Social Security Administration in the Dallas Region (A-06-05-15053),
Individual Representative Payees for the Social Security Administration in the Kansas City Region
(A-07-05-15054), Individual Representative Payees for the Social Security Administration in the Denver
Region (A-07-05-15055), Individual Representative Payees for the Social Security Administration in the
San Francisco Region (A-09-05-15056), and Individual Representative Payees for the Social Security
Administration in the Seattle Region (A-09-05-15057).
                                                                     Appendix B

Sampling Methodology
We obtained a data extract from the Social Security Administration’s Representative
Payee System of all individual representative payees having 14 or fewer beneficiaries in
their care as of May 20, 2004. This population was 5,380,635 representative payees
serving 6,818,696 beneficiaries.

From this population, we excluded representative payees who had any of the following
characteristics:

•   resided outside of the 48 contiguous United States;
•   served only as their own representative payee, as reflected in the Representative
    Payee System;
•   had all beneficiaries in their care in non-current pay status;
•   had an invalid state code or military address; or
•   managed total funds of $50 or less each month.

This reduced our population to 4,306,779 representative payees serving 5,520,303
beneficiaries. We randomly selected 275 representative payees from this population for
review. Initially, 12 of the 275 sample cases chosen were located in the Boston Region.
However, one of the selected representative payees moved from the Boston Region.
Accordingly, our review of the Boston Region consisted of 11 representative payees.
                  Appendix C

Agency Comments
                                          SOCIAL SECURITY

MEMORANDUM


Date:      November 30, 2004                                                        Refer To: S1D2G3/QA

To:        Steven L. Schaeffer
           Assistant Inspector General for Audit

From:      Manuel J. Vaz /s/
           Regional Commissioner
           Boston

Subject:   Individual Representative Payees for the Social Security Administration in the Boston Region
           (A-01-05-15048)


           Thank you for the opportunity to comment on the draft report, Review of Individual
           Representative Payees for the Social Security Administration in the Boston Region.

           We are very pleased with the results of this review and the fact that there are no
           recommendations and necessary actions.

           If you have any questions, please call me or have your staff contact Chris Bimber at
           (617) 565-2882.
                                                                      Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Judith Oliveira, Director, (617) 565-1765

   David Mazzola, Auditor Manager, (617) 565-1807


Acknowledgments

In addition to those named above:

   Alexander Rosania, Auditor

   Frank Salamone, Auditor


For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-01-05-15048.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
